                   AUDIT REPORT


         Audit of NRC’s Process for Addressing Bankruptcy
                       of Materials Licensees

                     OIG-14-A-10       January 16, 2014




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

           http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL




                                    January 16, 2014


MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROCESS FOR ADDRESSING
                            BANKRUPTCY OF MATERIALS LICENSEES
                            (OIG-14-A-10)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Process for Addressing Bankruptcy of Materials Licensees.

The report presents the results of the subject audit. Following the December 19, 2013,
exit conference, the agency provided informal comments, which OIG subsequently
incorporated into the draft report as appropriate. The agency reviewed the changes to
the report and opted not to provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, at 415-5914.

Attachment: As stated
                          Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



EXECUTIVE SUMMARY

   BACKGROUND


       The Nuclear Regulatory Commission (NRC) regulates the civilian use of
       nuclear materials to protect public health and safety and the environment,
       and to promote the common defense and security. NRC’s regulatory
       framework applies to domestic licenses for civilian uses of radioactive
       materials, and these NRC licensees’ financial condition (i.e., bankruptcy)
       could affect the agency’s ability to control licensed nuclear materials.
       Therefore, NRC’s primary interest is ensuring that control of nuclear
       materials is maintained during an NRC licensee’s period of bankruptcy.

       Federal regulations require that NRC materials licensees immediately
       notify NRC of a voluntary or involuntary filing of bankruptcy by or against
       the licensee, or an entity controlling the licensee. Licensees must notify
       NRC when they file for bankruptcy so NRC can have reasonable
       assurance that appropriate measures to protect public health and safety
       have been or will be taken.


       Once agency staff become aware of a bankrupt materials licensee, an
       NRC Bankruptcy Review Team (BRT) member will take the lead for the
       bankruptcy action. Some NRC staff serve as members of the BRT where
       they review and act on bankruptcy notifications as they occur. The
       member will keep the appropriate staff informed of the bankruptcy status,
       and ensure that licensed nuclear material is controlled while a licensee is
       in bankruptcy status. If appropriate, NRC will conduct a special
       inspection, use enforcement discretion for issuing enforcement actions,
       and/or request emergency assistance from other Federal agencies if there
       is an immediate threat to public health and safety.

   OBJECTIVE


       The audit objective was to determine if NRC has reasonable assurance
       that appropriate measures to protect the public health and safety have
       been or will be taken during bankruptcies involving materials licensees.




                                        i
                        Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



RESULTS IN BRIEF

    NRC’s Methods for Initially Learning of Bankrupt NRC Materials
    Licensees Could Be More Effective and Efficient

    Once NRC becomes aware of bankrupt materials licensees, NRC ensures
    that appropriate measures are taken to protect public health and safety.
    However, OIG found that NRC’s methods for initially learning of bankrupt
    materials licensees could be more effective and efficient.

    Although NRC licensees are required to report bankruptcies to the
    agency, most do not and NRC’s alternate ways for discovering bankrupt
    licensees fall short. Therefore, it is incumbent upon NRC to use effective
    and efficient methods to identify its bankrupt licensees. NRC has not (1)
    identified and used comprehensive source/s of bankrupt entities, and (2)
    developed guidance on staff’s role in identifying bankrupt NRC materials
    licensees. Consequently, if NRC does not know about bankrupt materials
    licensees, the risk increases for nuclear materials to become uncontrolled
    and cause harm to the public. Additionally, without formal guidance, NRC
    staff are duplicating efforts, thereby wasting valuable agency resources.

RECOMMENDATIONS

    This report makes recommendations to improve the agency’s process for
    addressing bankruptcy of NRC materials licensees.

AGENCY COMMENTS

    On December 5, 2013, the Office of the Inspector General (OIG) issued
    the discussion draft of this report to the Executive Director for Operations.
    OIG met with NRC management and staff on December 19, 2013, at an
    exit conference. The agency provided informal comments, which OIG
    subsequently incorporated into the draft report as appropriate. The
    agency reviewed the changes to the report and opted not to provide
    formal comments.




                                     ii
                        Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



ABBREVIATIONS AND ACRONYMS

   ADAMS    Agencywide Documents Access and Management System

   BRT      Bankruptcy Review Team

   CFR      Code of Federal Regulations

   DOJ      Department of Justice

   ENRD     Environmental and Natural Resources Division

   NRC      Nuclear Regulatory Commission

   OIG      Office of the Inspector General

   U.S.C.   United States Code




                                     iii
                                 Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................... i

        ABBREVIATIONS AND ACRONYMS ....................................................... iii

        I.      BACKGROUND ............................................................................. 1

        II.     OBJECTIVE ................................................................................... 3

        III.    FINDING ........................................................................................ 4

                  NRC’s Methods for Initially Learning of Bankrupt NRC
                  Materials Licensees Could Be More Effective and Efficient .......... 4

                  Recommendations ..................................................................... 11

        IV.     AGENCY COMMENTS ................................................................. 11

    APPENDICES

        A. OBJECTIVE, SCOPE, AND METHODOLOGY ................................... 12

        B. NRC GOOD PRACTICES .................................................................. 14




                                                 iv
                                      Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



I.      BACKGROUND

                The Nuclear Regulatory Commission (NRC) regulates the civilian use of
                nuclear materials for commercial, industrial, academic, and medical uses
                to protect public health and safety and the environment, and to promote
                the common defense and security. NRC’s regulatory framework applies to
                domestic licenses for civilian uses of radioactive materials, including
                approximately 4,100 1 research, medical, industrial, government, and
                academic materials licensees. There are two types of domestic licenses
                for users of nuclear materials: (1) specific licenses and (2) general
                licenses. A specific license is a document issued by NRC to a named
                person who has filed an application and is subject to routine inspections
                and other NRC requirements. A general license allows persons to receive
                and use a general licensed device containing byproduct or source material,
                if the device has been manufactured and distributed in accordance with a
                specific license issued by NRC. Examples of general licensed devices are
                gas chromatograph units, static eliminators, luminous exit signs, and in
                vitro laboratory kits.

                Federal Regulations

                The Atomic Energy Act of 1954, as amended, and NRC’s regulations in
                Title 10 of the Code of Federal Regulations (10 CFR) are in place to
                assure that appropriate measures to protect public health and safety have
                been or will be taken. These regulations2 require that NRC materials
                licensees—specific and some general licensees 3—immediately notify
                NRC of a voluntary or involuntary filing of bankruptcy by or against the
                licensee, an entity controlling the licensee, or an affiliate of the licensee.

                Bankruptcy Types Involving NRC Materials Licensees

                Bankruptcy laws of the United States are located in Title 11 of the United
                States Code (11 U.S.C.), more commonly known as the Bankruptcy Code.
                The Bankruptcy Code describes the different types of bankruptcies; see
                Table 1 for the two types (Chapters 7 and 11) that most frequently involve



1
  The number of materials licenses includes approximately 2,900 specific licenses issued by NRC and
1,200 general licenses registered by NRC.
2
  10 CFR 30.34(h)(1); 10 CFR 40.41(f)(1); and 10 CFR 70.32(a)(9)(i).
3
  A general licensee holding devices meeting the criteria of 10 CFR 31.5(c)(13)(i) is subject to the
bankruptcy notification requirement.

                                                   1
                                      Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



                  NRC licensees. Of those NRC materials licensees that file for bankruptcy,
                  the majority file for Chapter 11 bankruptcy.

                  Table 1: Bankruptcy Code
      Chapter of Bankruptcy                                    Definition
              Code
                                  Provides for "liquidation" (i.e., the sale of a debtor's
                                  nonexempt property and the distribution of the proceeds to
     Chapter 7
                                  creditors). The debtor may enter Chapter 7 bankruptcy
                                  voluntarily or be forced by creditors to enter it involuntarily.


                                  Generally used to reorganize a business and allows the
     Chapter 11                   debtor to continue its business operations by a plan of
                                  reorganization with the goal of returning it to a viable state.

    Source: Office of the Inspector General (OIG) generated from 11 U.S.C. and NUREG 1556, Volume 15

                  NRC Bankruptcy Guidance

                  NRC uses NUREG 1556, Volume 15, 4 as guidance for reviewing NRC
                  materials licensee bankruptcy notifications to ensure that bankruptcies are
                  coordinated with appropriate NRC staff and that the necessary measures
                  are taken during the time of a bankruptcy to protect public health and
                  safety. This NRC guidance document is intended for NRC materials
                  licensees, license applicants, and staff. It contains guidance for preparing
                  a bankruptcy notification to NRC.

                  NRC Bankruptcy Process

                  In addition to headquarters and regional staff’s primary duties, some staff
                  serve as members of NRC’s Bankruptcy Review Team (BRT). The BRT
                  members, which represent various NRC offices, coordinate, review, and
                  act on bankruptcy notifications as they occur. NRC’s primary interest is
                  ensuring that control of nuclear materials is maintained during the period
                  of bankruptcy. Once agency staff become aware of a bankrupt materials
                  licensee, a BRT member will take the lead for the bankruptcy action. This
                  NRC staff member contacts licensee personnel to verify bankruptcy
                  information, and ensures that the licensee submits the required written
                  notification. The staff member will continue to keep the
4
 NUREG 1556, Volume 15, “Consolidated Guidance About Materials Licenses: Guidance About
Changes of Control and About Bankruptcy Involving Byproduct, Source, or Special Nuclear Materials
Licenses.”
                                                   2
                                       Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



                appropriate staff—usually through the BRT—informed of the bankruptcy
                status.

                Control of Materials During Bankruptcy

                A licensee’s financial condition could affect its ability to control licensed
                nuclear material. Therefore, licensees must notify NRC when they file for
                bankruptcy so NRC can have reasonable assurance that appropriate
                measures to protect public health and safety have been or will be taken.
                These measures include:

                    •   Maintaining security of licensed material and contaminated
                        facilities.

                    •   Assuring that licensed material is transferred only to properly
                        authorized NRC or Agreement State 5 licensees.

                    •   Assuring that properly trained and experienced personnel are
                        retained to implement appropriate radiation safety measures.

                NRC’s primary goal for overseeing bankruptcies is to ensure that licensed
                nuclear material is controlled while a licensee is in bankruptcy status. If
                appropriate, NRC will conduct a special inspection, use enforcement
                discretion for issuing enforcement actions, and/or request emergency
                assistance from other Federal agencies if there is an immediate threat to
                public health and safety.



II.     OBJECTIVE

                The audit objective was to determine if NRC has reasonable assurance
                that appropriate measures to protect the public health and safety have
                been or will be taken during bankruptcies involving materials licensees.
                Appendix A of this report contains information on the audit scope and
                methodology.




5
  An Agreement State is a U.S. State that has signed an agreement with NRC authorizing the State to
regulate certain uses of radioactive materials within the State. NRC relinquishes to such States portions
of its regulatory authority to license and regulate radioactive nuclear materials.
                                                    3
                                       Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



III.    FINDING

        NRC’s Methods for Initially Learning of Bankrupt NRC Materials Licensees
        Could Be More Effective and Efficient

                Once NRC becomes aware of bankrupt materials licensees, NRC ensures
                that appropriate measures are taken to protect public health and safety.
                OIG auditors observed noteworthy practices performed by headquarters
                and regional staff during the course of the audit (see Appendix B for a list
                of these practices). However, OIG found that NRC’s methods for initially
                learning of bankrupt materials licensees could be more effective and
                efficient.

                Although NRC licensees are required to report bankruptcies to the
                agency, most do not and NRC’s alternate ways for discovering bankrupt
                licensees fall short. It is incumbent upon NRC to use effective and
                efficient methods to identify its bankrupt licensees. NRC has not (1)
                identified and used comprehensive source/s of bankrupt entities, and (2)
                developed guidance on staff’s role in identifying bankrupt NRC materials
                licensees. Consequently, if NRC does not know about bankrupt materials
                licensees, the risk increases for nuclear materials to become uncontrolled
                and cause harm to the public. Additionally, without formal guidance, NRC
                staff are duplicating efforts, thereby wasting valuable agency resources.

                NRC Should Have Effective and Efficient Methods To Identify
                Bankrupt Licensees

                NRC should use effective and efficient methods for identifying bankrupt
                materials licensees. Federal regulations put the burden of bankruptcy
                notification on materials licensees; however, the majority of licensees do
                not report their bankruptcy to NRC. OIG reviewed NRC’s documentation
                of 41 bankrupt materials licensees the agency was aware of to identify
                how NRC learned of those bankruptcies. Of the 41 bankruptcies, 6 68
                percent were not self-reported by licensees. Because most licensees do
                not self-report, it is incumbent upon NRC to employ alternate activities to
                identify bankrupt materials licensees.



6
 For the purpose of the audit, the audit team reviewed those NRC materials licensees that filed for
bankruptcy between March 2008 and July 2013.

                                                    4
                    Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



NRC’s principles of good regulation require regulatory actions that are
effective, efficient, and timely. Therefore, to achieve greater effectiveness
and efficiency, it is necessary for the agency to rely on adequate methods
for identifying bankrupt materials licensees and communicate those well-
defined methods in agency guidance to help staff understand and carry
out their responsibilities. Further, timely recognition of bankruptcies is
critical for NRC to ensure early and thorough attention to situations that
could adversely affect the control of nuclear materials.

Methods for Identifying Bankrupt Licensees Could Be More Effective
and Efficient

NRC’s methods for discovering bankrupt materials licensees are not as
effective or efficient as they could be. NRC is aware that the majority of
materials licensees do not self-report their bankruptcies as required. As
such, NRC relies on other activities it has in place to help identify bankrupt
licensees. Because these activities were established for reasons other
than identifying bankrupt licensees, NRC does not obtain all the
information it needs in a timely manner and there is some confusion
regarding staff members’ roles, often causing duplication of their efforts.

NRC’s Methods for Identifying Bankruptcies

The methods NRC relies upon to identify bankruptcies do not provide
timely and complete information. NRC primarily discovers bankrupt
materials licensees through the following methods:

   •   Fee collection process.

   •   Materials inspections.

   •   A listing of bankruptcies from the Department of Justice (DOJ).

Further, and to a lesser extent, NRC staff also review the news or receive
reports from a third party (e.g., other materials licensees) as sources for
identifying bankrupt NRC licensees.




                                 5
                                       Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



                        Fee Collection

                NRC can learn of bankrupt materials licensees through its annual fee 7
                collection process. Upon becoming an NRC licensee, an entity is
                obligated to pay an annual fee 8 for its license. If a licensee does not pay
                its fee on time, that may signal to NRC that the licensee is in bankruptcy.
                While this method is a source for identifying bankrupt NRC materials
                licensees, it could take more than a year before NRC confirms that a
                licensee is in bankruptcy.

                When an NRC materials licensee is delinquent in paying its license fee,
                NRC begins the process to collect fees due to the agency. As shown in
                Table 2, if a licensee is more than 30 days delinquent in paying its annual
                fee, NRC mails a dunning notice to the licensee informing the licensee
                that its license fee was not paid. If, after 61 days, the licensee still does
                not pay its annual fee, an NRC contractor contacts the licensee by email
                or phone to determine why the licensee has not paid its annual license
                fees. If the agency cannot make contact with the licensee, the appropriate
                NRC regional inspector may visit the licensee’s site. Consequently,
                approximately 476 days can pass before NRC makes its first attempt at
                contacting the licensee in person by a regional inspector.




7
  10 CFR Part 171, “Annual Fees for Reactor Operating Licenses and Fuel Cycle Licenses and
Materials Licenses, Including Holders of Certificates of Compliance, Registrations, and
Quality Assurance Program Approvals and Government Agencies Licensed by the NRC,” subjects most
NRC licensees to annual fees.
8
  Annual fees for NRC materials licensees that are less than $100,000 should be billed on the anniversary
date of the license, and annual fees that are $100,000 or more should be billed quarterly.
                                                    6
                                     Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



               Table 2: Timeline for NRC’s Billing Process for the Collection of
               Materials Licensees’ Annual Fees
                                                     Number of
                                    Number of
                                                     Days From
                                    Days From                      Accrued Number of
         Action                                      Issuance of
                                    Initial Action 9               Days (approximate)
                                                     Invoice
                                    (approximate)
                                                     (approximate)

         Invoice is sent to
                                          365                  0                         365
         licensee for annual
         license fee collection
         First notice - dunning           30                  30                         395
         letter sent to licensee

         Second notice -
                                          31                  61                         426
         phone call and/or
         email to licensee

         Regional inspectors
         requested to assist in           50                  111                        476
         contacting the
         licensee

         Order process begins             10                  121                        486
         to revoke license
                                                                                   Source: OIG generated


                       Materials Inspections

               NRC also learns of materials licensee bankruptcies through its inspection
               process. When conducting an inspection, an NRC inspector may learn
               that a licensee is currently in, or about to file for, bankruptcy. An NRC
               inspector may also learn of a licensee’s bankruptcy by discovering the
               licensee’s facility is shut down and/or abandoned when the inspector
               arrives to conduct the inspection. While learning about bankruptcies
               through the inspection process is useful, it may not always be timely as
               specific licensees are inspected anywhere from every 9 months to 6
               years 10 depending on the type of license. In addition, NRC does not
               typically inspect general licensees.

9
  Either issuance of license or previous action.
10
   NRC Inspection Manual Chapter 2800, “Materials Inspection Program,” suggests that the minimum
frequency for an inspection is 9 months (1 year minus 25 percent). The maximum frequency for an
inspection is 6 years (5 years plus 1 year).
                                                  7
                                           Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



                            DOJ Bankruptcy List

                   DOJ represents the Federal Government in cases involving certain
                   bankrupt entities. To determine which cases it needs to represent for the
                   Government, DOJ sends a list of bankrupt entities to Federal agencies like
                   NRC. The DOJ organization that provides the bankruptcy list to NRC is
                   the Environmental and Natural Resources Division (ENRD). As such, its
                   work focuses on industrial and manufacturing companies because those
                   companies have the greatest potential to have an impact on the
                   environment. In creating its list, ENRD’s search parameters did not
                   include medical or academic organizations. After meeting with OIG in
                   June 2013, ENRD proactively began including some hospitals and
                   medical facilities that declare bankruptcy on the NRC list based on
                   ENRD’s reviews of publications and notices to the Environmental
                   Protection Agency. If ENRD officials learn of a bankruptcy that is
                   noteworthy to NRC, they will send that information sooner than the
                   monthly list that is typically emailed to NRC. Even though ENRD now
                   includes some hospitals and medical facilities on the list that it sends to
                   NRC, the list does not contain all companies that file for bankruptcy. In
                   fact, NRC receives information on less than 1 out of 20 bankruptcies
                   occurring across the Nation monthly.

                   NRC Staff’s Role in Identifying Bankruptcies

                   NRC’s process for identifying materials licensees is not as efficient as it
                   could be because staff are performing duplicative tasks. Because the list
                   of bankrupt companies from DOJ contains bankrupt organizations from
                   across the country and is not inclusive to only NRC materials licensees,
                   NRC’s BRT members must review the list to determine which companies,
                   if any, are NRC licensees. DOJ emails the list of new bankruptcies to its
                   NRC contact each month. The NRC contact, a BRT member, forwards
                   the email to the rest of the BRT members to ascertain if NRC has any
                   interest. Multiple NRC staff members (in headquarters and Regions11 I,
                   III, and IV) conduct Internet and other searches to determine if any of the
                   listed companies are NRC licensees. There is no written guidance on the
                   type of search to perform when identifying bankrupt materials licensees.
                   Instead, it is up to each staff member to determine the sources of
                   information to examine and the extent of the review to perform. Multiple


11
     Auditors did not interview staff in Region II because Region I oversees all materials licensees in
     Region II.
                                                        8
                                      Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



               staff members are duplicating search efforts using the Internet and agency
               databases, including:

                   •   Google.

                   •   ADAMS. 12

                   •   General Licensing Tracking System. 13

                   •   Web-Based Licensing. 14

                   •   A 3-year-old list 15 known as the “Alpha List.”

               Specifically, agency staff across NRC perform the same reviews to
               determine if any of the companies on the DOJ list are NRC licensees.
               Depending on how many companies are on the DOJ list, each staff
               member could take several hours to complete the search for bankrupt
               licensees.

               Improvement Needed in Identifying Bankrupt Licensees

               NRC has not (1) identified and used comprehensive source/s of bankrupt
               entities as part of its process for identifying bankrupt NRC licensees, and
               (2) developed guidance on staff’s role for identifying bankrupt materials
               licensees.

               Employing comprehensive source/s of up-to-date and complete
               information that identify bankrupt entities would better position NRC to
               know about bankruptcies that affect the agency as soon as they happen.
               Moreover, the sooner NRC becomes aware of a bankrupt materials
               licensee, the faster the agency can take the appropriate steps to ensure
               that the nuclear materials are properly controlled. Although agency staff
               believe that there are very few bankrupt materials licensees, they have no

12
   Agencywide Documents Access and Management System (ADAMS) is NRC’s official recordkeeping
system that contains vast libraries or collections of documents related to the agency’s regulatory
activities.
13
   General Licensing Tracking System is an NRC database that stores information about general licensed
devices and general licensees.
14
   Web-Based Licensing is an NRC database that stores information about specific licensees accessible
to NRC staff.
15
   In 2010, NRC stopped using a program through the National Institutes of Health that provided an
alphabetized list of NRC materials licensees due to the development of NRC’s current licensing tracking
system, Web-Based Licensing System.
                                                   9
                                     Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



               reliable method to confirm that belief. OIG used a free public bankruptcy
               Web site that lists organizations that are currently in bankruptcy. OIG’s
               one-time search yielded an NRC licensee currently in bankruptcy of which
               NRC was not aware.

               Further, concerning staff’s role in reviewing the DOJ list, staff are
               duplicating efforts because there is no guidance describing what needs to
               be done. For example, NRC’s current bankruptcy-related guidance 16 does
               not provide staff with explicit directions on who should review bankruptcy
               information or how the review should be conducted for identifying NRC
               bankrupt materials licensees. Establishing agencywide guidance would
               assist in avoiding unnecessary duplication of effort.

               NRC Risks Not Knowing About Bankrupt Material Licensees and Is
               Not Efficiently Using Its Resources

               Given the agency’s current approach to identifying bankrupt licensees,
               NRC risks not knowing about bankrupt materials licensees, which
               increases the risk of materials becoming uncontrolled and causing harm to
               the public. Additionally, without formal guidance, NRC staff are
               duplicating efforts, thereby wasting valuable agency resources.

               Uncontrolled materials associated with bankrupt licensees can
               compromise public health and safety. OIG searched NRC’s Nuclear
               Materials Events Database 17 and identified five bankruptcy-related events
               that occurred over a 13-year period involving NRC materials licensees.
               These events reflected lost or a loss of control of nuclear materials
               reported across the United States because of bankruptcy. For example, a
               coal company that went bankrupt lost control of a gauge containing 0.5
               Curies of Cesium-137. In another case, a gauge containing a 0.1 Curies
               Cesium-137 source was found at a licensee's facility during environmental
               cleanup after the licensee went into bankruptcy and abandoned the
               property. The longer it takes for NRC to learn of a bankrupt licensee, the
               greater the risk to public health and safety. Additionally, a person
               exposed to sources such as these can receive a dose that exceeds NRC’s
               regulatory limits and could, in some circumstances, receive a radiation
               injury.



16
 NUREG 1556, Volume 15.
17
 The Nuclear Materials Events Database is the system NRC uses to track events and monitor nuclear
materials trends across the country.
                                                  10
                             Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



         The way that NRC staff members review the DOJ bankruptcy list is not an
         efficient use of resources. Duplication of effort is costly and prevents staff
         from doing other safety-related work. Senior managers question the
         amount of time and resources staff dedicate to this task, when other staff
         members are performing the same tasks. By not devising a method to
         review the list more efficiently, NRC is missing an opportunity for cost
         savings.

    Recommendations

         OIG recommends that the Executive Director for Operations:

         1. Identify and use comprehensive source/s of bankrupt entities, as part
            of NRC’s process for identifying bankrupt NRC licensees.

         2. Develop guidance on staff’s role for identifying bankrupt NRC materials
            licensees.



IV. AGENCY COMMENTS


         On December 5, 2013, the Office of the Inspector General (OIG) issued
         the discussion draft of this report to the Executive Director for Operations.
         OIG met with NRC management and staff on December 19, 2013, at an
         exit conference. The agency provided informal comments, which OIG
         subsequently incorporated into the draft report as appropriate. The
         agency reviewed the changes to the report and opted not to provide
         formal comments.




                                          11
                           Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees


                                                                                      APPENDIX A
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

        The audit objective was to determine if NRC has reasonable assurance
        that appropriate measures to protect the public health and safety have
        been or will be taken during bankruptcies involving materials licensees.

    SCOPE

        We conducted this performance audit at NRC headquarters (Rockville,
        MD) and three NRC regional offices (Region I, King of Prussia, PA;
        Region III, Lisle, IL; and Region IV, Arlington, TX) from March 2013
        through October 2013. OIG also interviewed DOJ personnel in
        Washington, DC. Internal controls related to the audit objective were also
        reviewed and analyzed. Throughout the audit, auditors were aware of the
        possibility or existence of fraud, waste, or misuse in the program.

    METHODOLOGY

        The audit team reviewed relevant criteria, including the Atomic Energy Act
        of 1954, as amended; NUREG 1556, Volume 15, “Consolidated Guidance
        About Materials Licenses: Guidance About Changes of Control and About
        Bankruptcy Involving Byproduct, Source, or Special Nuclear Materials
        Licenses”; and 10 CFR Part 30, “Rules of General Applicability to
        Domestic Licensing of Byproduct Materials.” OIG also reviewed NRC
        enforcement policies and inspection procedures.

        OIG auditors compiled a universe of bankruptcy notifications. The
        bankruptcy notifications consisted of bankruptcies either identified by OIG
        searches or provided to OIG by agency staff. All of the bankruptcies were
        NRC materials licensees that filed for bankruptcy between March 2008
        and July 2013 and of which NRC became aware.

        At NRC headquarters, auditors interviewed BRT members to gain an
        understanding of their roles and responsibilities as they relate to
        bankruptcy of materials licensees. Interviews were conducted with staff
        from the Office of Federal and State Materials and Environmental
        Management Programs, Office of the Chief Financial Officer, Office of


                                        12
                   Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees



Nuclear Security and Incident Response, Office of the General Counsel,
and NRC Regions I, III, and IV. Auditors also interviewed DOJ staff to
gain an understanding of the coordination between DOJ and NRC
involving the identification of bankrupt NRC materials licensees.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader; Andrea
Ferkile, Audit Manager; Kevin Nietmann, Senior Technical Advisor; Tony
Lipuma, Senior Assistant for Audit Operations; Taylor Butch, Management
Analyst; and Dia Bhatia, Student Management Analyst.




                                13
                           Audit of NRC’s Process for Addressing Bankruptcy of Materials Licensees


                                                                                      APPENDIX B
NRC GOOD PRACTICES

        OIG observed the following tasks, methods, and activities related to
        NRC’s bankruptcy processes during interviews with staff from
        headquarters, Regions I, III, and IV:

        1. Coordination with Agreement States: Staff share information regarding
           bankrupt materials licensees within an Agreement States' jurisdiction
           with the responsible Agreement State and vice versa.

        2. Reminders to Licensees During Inspections: During routine
           inspections, inspectors remind NRC materials licensees of their
           reporting requirements, including the licensees’ obligation to
           immediately report their bankruptcy filing to NRC.

        3. ADAMS Bankruptcy Folders: Staff created a technique to track
           bankruptcies in ADAMS by creating folders to hold information. The
           ADAMS tracking method serves as a good timeline, provides
           bankruptcy related information to all agency staff, and is a way to show
           closure to a bankruptcy proceeding.

        4. Consolidated Checklist: Staff created a condensed version of key
           questions from NUREG 1556, Volume 15, regarding the security of
           materials (e.g., quantity and location). After learning about the
           bankruptcy, NRC sends the questions to licensees during its first
           contact. The checklist is specific to bankruptcy and the questions on
           the checklist seek to assess the functionality of a licensee’s health and
           safety practices during the time of the bankruptcy.




                                        14
